                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
October 1, 2005 - March 31, 2006
      Fiscal Year 2006 Semiannual Report No. 1




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsig.gov
                                                                                                    Table Of Contents


Executive Summary................................................................................................. 1
      Proactive Initiatives ..................................................................................................................... 1
      Audit Section ................................................................................................................................ 1
      Investigations Section................................................................................................................. 2
      About The Office Of Inspector General ..................................................................................... 2

Proactive Initiatives ................................................................................................. 5
      OIG Management Initiatives........................................................................................................ 7
      Coordination With Corporation Management ........................................................................... 8
      Outreach and Education ............................................................................................................. 9

Audit Section.......................................................................................................... 11
      Financial Management and Corporation Operations ............................................................. 13
      Grant Management and Oversight ........................................................................................... 14
      State Commission Audits ......................................................................................................... 14
      AmeriCorps National Direct Grant Audits ............................................................................... 15
      Training and Technical Assistance Cooperative Agreement Audits.................................... 15
      Senior Corps Grant Audits........................................................................................................ 16
      Audit Resolution ........................................................................................................................ 17
      Proposed Management Decisions ........................................................................................... 17
      Notices of Final Action .............................................................................................................. 18

Investigations Section........................................................................................... 21
      Summary of Cases..................................................................................................................... 23

Review of Legislation and Regulations ............................................................... 31
      Program Fraud Civil Remedies Act.......................................................................................... 33

Statistical and Summary Tables ........................................................................... 35
      I.      Inspector General Act Reporting Requirements........................................................... 37
      II.     Reports With Questioned Costs ..................................................................................... 38
      III.    Reports With Recommendations That Funds Be Put To Better Use .......................... 39
      IV.     Summary of Audits With Overdue Management Decisions......................................... 40
      V.      Reports Described in Prior Semiannual Reports Without Final Action...................... 41
                                                                   Executive Summary


 Executive Summary
Proactive Initiatives
 The Office of Inspector General (OIG) continued to take a proactive stance by undertaking numerous
 initiatives to improve its effectiveness and efficiency and to provide the Corporation for National and
 Community Service (Corporation) with timely advisories and information on key issues involving its
 programs and operations. During this reporting period, the OIG’s application for Statutory Law
 Enforcement Authority was approved by Attorney General Alberto R. Gonzales, arming our
 investigators with important new tools as they pursue allegations of waste, fraud and abuse. OIG
 management also established a Five-Year Strategic Plan and a new employee evaluation program
 that directly links compensation to performance and OIG goals. Our coordination with Corporation
 management resulted in significant improvements in policies governing criminal background checks
 and the living allowances that support AmeriCorps members. We also expanded our outreach and
 education efforts by publishing a booklet titled “Your Guide to the Office of Inspector General.”


Audit Section
 During this reporting period, the OIG Audit Section conducted audits and other work to improve the
 operations of the Corporation and issued 18 reports. A summary for each report issued is included in
 this semiannual report.

 Work ongoing during this reporting period includes:

     Senior Corps Audits

     •   Agreed-Upon Procedures Applied to the Kansas City Big Brother-Big Sisters Grant
     •   Kentucky Department of Health and Mental Health Services
     •   Louisville Metro Community Action Partnership

     AmeriCorps Audits

     •   Florida Commission
     •   Maryland Commission
     •   Utah Commission
     •   Oklahoma Commission
     •   New Mexico Commission
     •   Idaho Commission
     •   Massachusetts Commission
     •   New York Commission
     •   Tennessee Commission
     •   Arizona Commission
     •   Education Works

     Corporation Operations

     •   Audit of the FY 2006 Financial Statements and Trust
     •   Audit of the Office of Procurement Services
     •   Review of Internet Policies, Procedures and Usage
     •   Review of the Purchase and Travel Card Program
     •   Follow-up Review of AmeriCorps Enrollment Procedures
     •   Study of Federal Assistance Monitoring Tools
 October 1, 2005 – March 31, 2006                                                                 1
Executive Summary

     OMB Circular A-133 Audit Quality Control Reviews

     •   Quality Control Review of the Council of the Great City Schools OMB A-133 Audit Report
         preformed by Raffa CPAs
     •   Quality Control Review of the Catholic Network of Volunteer Services OMB A-133 Audit
         Report performed by Cocchiaro & Associates


Investigations Section
 The OIG Investigations Section continues to investigate allegations of fraud, waste, and abuse of
 taxpayer dollars in Corporation programs and operations. During this reporting period, the
 Investigations Section received and processed 64 Hotline contacts, opened 21 investigative actions,
 and closed 30 actions. Five matters were referred to the U.S. Department of Justice for prosecution.
 Forty-four other matters were referred to Corporation management and State commissions for action.
 Investigators were responsible for recovering $64,820 in Corporation funds and $46,236 in cost
 avoidance. Based on information presented to the Corporation, management debarred five
 individuals and two companies. In addition, ongoing OIG investigations have identified $1.63 million
 in potential recoveries.


About The Office Of Inspector General
 In 1993, Congress created the Corporation for National and Community Service (Corporation), along
 with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
 U.S.C. §§ 12501-681). Our office is independent of the agency it oversees. Led by a presidential
 appointee, we conduct audits and investigations of Corporation programs, including AmeriCorps,
 Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
 America, and Senior Corps.

 The OIG also examines Corporation operations, State community service programs that receive and
 distribute the majority of Corporation grant funds, and local subgrant recipients.

 Based on the results of our audits, investigations and reviews, the OIG recommends Corporation
 policies to promote economy and efficiency. We also strive to prevent and detect waste, fraud and
 abuse of taxpayer dollars that have been invested in National Service.

 This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
 six months of fiscal year 2006. It is being transmitted to the Chief Executive Officer of the
 Corporation, the Corporation’s Board of Directors, and Members of Congress. It will also be made
 available to the public.

 All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information
 Act. Our efforts are often aided by information supplied via the OIG Hotline (800-452-8210). The
 Hotline allows Corporation employees, grantees, program beneficiaries, and others to report
 concerns and suspected fraud.

 For more information on the OIG and its work, please visit our Internet website: www.cncsig.gov, or
 telephone us at (202) 606-9390.




 2                                                            October 1, 2005 – March 31, 2006
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                        ♦   All information is confidential.

                        ♦   You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
         1201 New York Avenue NW, Suite 830
                 Washington, DC 20525
                                       Proactive Initiatives
                   In its ongoing effort to prevent and detect fraud, waste
                   and abuse in a timely manner, the Office of Inspector
                   General has taken a proactive stance to alert and inform
                   Corporation management and its national service
                   partners of issues and current and potential problems.
                   Our initiatives include analyses and reports by our Audit
                   and Investigations Sections, management advisories
                   and other communications, and outreach to all
                   Corporation stakeholders through our information and
                   education programs. OIG management has also
                   developed a number of initiatives during this reporting
                   period to improve performance and efficiency and to
                   enhance employee job skills.




October 1, 2005 – March 31, 2006                                        5
                                                                    Proactive Initiatives

OIG Management Initiatives
 Statutory Law Enforcement Authority: Attorney General Alberto R. Gonzales on January 10, 2006,
 approved the OIG’s application for Statutory Law Enforcement Authority, a move that allows OIG
 Agents to make arrests, seek and execute arrest and search warrants, and carry firearms in the
 course of their official duties. The law enforcement powers are authorized under provisions of the
 Inspector General Act and the Homeland Security Act. In approving the new powers, Attorney
 General Gonzales said “there is adequate evidence that your investigations have been significantly
 hampered and jeopardized due to the lack of such authority.”

 The OIG sought the authority to lessen its reliance on local police and other officials for backup when
 OIG agents are in the field probing allegations of fraud, waste and abuse of Federal funds. Also, OIG
 agents often conduct their work in high-crime areas and must occasionally deal with potentially violent
 suspects. The OIG has begun implementation of its new powers with training and policies to ensure
 the safety of all personnel.

 Five-Year Strategic Plan: During this reporting period, the OIG issued a Strategic Plan for Fiscal
 Years 2006 through 2010 that includes three major goals and outlines the objectives, strategies and
 measures to achieve each goal. The goals include:

     1. Ensure that OIG activities support the Corporation’s mission by emphasizing examinations of
        the Corporation’s critical programs and operations.
     2. Communicate effectively with Congress, the Corporation Board of Directors, Corporation
        senior management and staff, grantees and subgrantees, the public, and other parties as
        appropriate.
     3. Strengthen the OIG’s ability and readiness to have maximum impact on the most significant
        issues facing the Corporation and its programs.

 Employee Performance Management: During this reporting period, OIG senior managers
 developed a new employee appraisal program that directly links compensation to performance and
 positive results. The new Performance Management Program is a yearlong, continuous, and
 collaborative process. The “whole” employee is evaluated on what he or she has contributed to
 achieving the OIG’s mission and organizational goals. The performance management cycle, which
 has replaced the old “pass-fail” method of evaluating employees, runs from January 1 through
 December 31. It includes performance planning, monitoring employee performance, developing
 employees’ knowledge and skills through training, and rating and rewarding performance.

 Technology Upgrades and Enhancements: Under the leadership of the Chief Technology Officer,
 the OIG embarked on a network improvement plan. The project will transform the OIG’s computer
 network into a Real-time Information Management System capable of seamlessly collecting,
 processing and providing data. This system will enable OIG managers to better coordinate their
 efforts and quickly make decisions and implement strategies that will have maximum impact on
 issues facing the Corporation.

 During Phase 1, hardware and software are being upgraded to a level consistent of a modern
 business environment. Phase 2 consists of merging of our multiple client databases into a single
 database that will be accessible by all OIG employees. Real-time data will enable managers to
 access up-to-date information on audits, investigations and the costs associated with these efforts.
 Phase 2 will also include implementation of an office-wide document management system. The
 project further seeks to implement an audit resolution program that will be shared with the
 Corporation and will provide maximum visibility to both OIG and Corporation managers. Progress
 made on these initiatives will be included in subsequent semiannual reports.

 Staff Training: The OIG continued to conduct an ambitious and wide-ranging staff training program,
 with the goal of having each employee complete a minimum of 40 hours of professional development
 each calendar year. During this reporting period, OIG management and staff completed 1,090 hours

 October 1, 2005 – March 31, 2006                                                                 7
Proactive Initiatives

 of instruction at the Federal Law Enforcement Training Center, Inspector General Auditor Training
 Institute, Inspector General Criminal Investigator Academy and numerous other vendors. Topics
 ranged from criminal investigator training and updates on government auditing standards to forensic
 computer examinations and investigative report writing classes.

 In addition, the OIG utilized its in-house talent as employees conducted classes for their peers on
 legal issues, investigative and audit procedures and report writing. In addition to capitalizing on in-
 house skills, this program is cost-effective, can be tailored to immediate and changing needs and
 allows for flexible scheduling.


Coordination With Corporation Management
 Criminal Background Checks: The OIG continued to work with Corporation management during
 this reporting period on strengthening criminal background requirements for members and volunteers
 who serve with children and other vulnerable persons.

 We recommended that the Corporation strengthen its provisions and guidance on the meaning of
 “substantial direct contact with children,” require documentation of program officials’ placement of
 members found to have a criminal background, expand procedures to include all applicable Federal,
 State, county and local law enforcement and judicial sources, and require criminal background
 checks for senior volunteers who work out of sight with beneficiaries on a one-on-one basis.

 In October, the Corporation published in the Federal Register notice of its intent to issue a regulation
 on criminal background checks for Corporation grant programs, and asked for public input on such
 issues as the most effective screening practices, what databases should be searched, and whether
 per se disqualification should be required and for what types of findings. The Corporation used the
 input to draft a proposed rule which it intends to formally publish in the near future.

 E-Mail and Other Records Retention Policies: As noted in our prior semiannual report, several
 investigations over the past years have revealed that the Corporation has no established policy for
 record retention and management, such as an instruction to employees on what should constitute a
 “record,” or how and where official records should be maintained, as required by 44 U.S.C. §§ 3101-
 02. These investigations also revealed that the Corporation lacked the ability to retain or retrieve e-
 mail communications that qualify as a government record, as required by 36 C.F.R. § 1234.24,
 Standards for Managing Electronic Mail Records. This regulation states that agencies’ policies
 should account for e-mail records, either by creating an electronic record keeping system according
 to specified criteria, or, “[i]f the electronic mail system is not designed to be a recordkeeping system,
 agencies shall instruct staff on how to copy Federal records from the electronic mail system to a
 record keeping system.”

 The OIG has repeatedly brought this matter to the attention of Corporation management. No policy
 regarding records management retention has yet been implemented, but the Corporation indicated
 during this reporting period that it intends to solicit bid proposals from contractors with expertise in
 records management. The contractor would review records systems, polices, and procedures,
 recommend revisions and improvements, and identify automated off-the-shelf commercial records
 management solutions.

 Living Allowances: As the result of its audits and investigations, the OIG advised the Corporation in
 2004 that programs were paying “lump sum” living allowances to AmeriCorps members who had
 completed their service terms in less than the usual 12-month format. During this reporting period, the
 OGC concurred with the OIG that the practice was in violation of AmeriCorps provisions. The
 Corporation strengthened its guidance to grantees, stressing that living allowances are to be paid to
 members only while they are in active service.




 8                                                             October 1, 2005 – March 31, 2006
                                                                    Proactive Initiatives

Outreach and Education
 Fraud Awareness Briefings: The OIG Investigations Section continues to provide Corporation,
 grantee and subgrantee employees, and volunteers with information on how to identify, prevent and
 report waste fraud and abuse of taxpayer-funded resources. Investigators and OIG senior managers
 regularly provide these multimedia briefings as part of their field assignments and also provide them
 to meetings and training sessions conducted by Corporation grantees and other national service
 stakeholders. Topics include the role and mission of the OIG, common types of program fraud, and
 how to detect and report suspected abuses. During this reporting period, we conducted Fraud
 Awareness Briefings involving several hundred members, Corporation employees and program staff.

 “Your Guide to the Office of Inspector General”: During this reporting period, we compiled and
 published this brochure, which takes readers on a step-by-step examination of the role, mission and
 activities of the OIG. The brochure, written in an easy-to-read format, includes details on the
 investigative and audit processes. It also gives information to all Corporation stakeholders on how
 they can assist the OIG in its effort to halt and prevent waste, fraud and abuse of Federal taxpayer
 dollars invested in national service.

 “For Your Inspection (FYI)”: During this reporting period, we published two editions of FYI, our
 quarterly newsletter that highlights the mission and work of the OIG and offers in-depth information on
 key issues facing the Corporation and its grantees. During this reporting period, FYI featured articles
 on abuses of the AmeriCorps Cares and VISTA Cares childcare benefit programs and on the
 importance of compiling and retaining accurate time and attendance records. FYI is widely
 distributed, in print and electronically, to Corporation employees, grantees, volunteers and other
 stakeholders.




 October 1, 2005 – March 31, 2006                                                                 9
Proactive Initiatives




 10                     October 1, 2005 – March 31, 2006
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




October 1, 2005 – March 31, 2006                                       11
                                                                               Audit Section


Financial Management and Corporation Operations
 Audit Report 06-01, Audit of the Corporation for National and Community Service’s Fiscal Year
 2005 Financial Statements

 The auditors rendered an unqualified opinion on the 2005 Financial Statements. Although progress
 on monitoring was noted compared to 2004 audit results, further improvements are required. The
 Corporation’s monitoring of grantee activities was therefore cited as a reportable condition again in
 2005. Deficiencies were also observed in personnel practices and payroll processing. The auditors
 did not consider these reportable conditions to be material weaknesses. Also, the auditors found no
 instances of noncompliance with laws and regulations that would have a direct and material effect on
 the financial statements.

 Audit Report 06-02, Corporation for National and Community Service’s Fiscal Year 2005
 Management Letter

 During the Fiscal Year 2005 Financial Statement Audit, the auditors noted certain matters involving
 the control over financial reporting and other operational matters that were not considered material
 weaknesses or reportable conditions. The Management Letter discusses these matters and includes
 recommendations for corrective action. The Corporation agreed with the recommendations and
 stated that corrective action has been completed on many of the matters.

 Audit Report 06-03, Audit of the Corporation for National and Community Service’s National
 Service Trust Schedule of Fiscal 2005 Budgetary Resources and Obligations

 The Corporation’s National Service Trust Schedule of Fiscal 2005 Budgetary Resources and
 Obligations presented fairly, in all material respects, the budgetary resources and obligations for the
 year ended September 30, 2005.

 Audit Report 06-06, Independent Evaluation of Corporation for National and Community
 Service Compliance with the Federal Information Security Management Act (FISMA) for Fiscal
 Year 2005

 The evaluation found three significant deficiencies and made recommendations to improve the
 Corporation’s information security. The Corporation’s response to the report includes an aggressive
 action plan to correct the weaknesses noted.

 Report 06-15, Follow-Up Assessment of the Corporation’s Alternative Personnel System

 We contracted with Job Performance Systems, Inc. (JPS) to conduct a follow-up review and
 assessment of the Corporation’s Alternative Personnel System (APS). This report is an evaluation of
 the Corporation’s progress in responding to the 13 observations and options for improvement offered
 in a 2003 assessment of the APS that was conducted for the OIG by Deloitte and Touche.

 JPS’s review and assessment found progress in a number of key areas, including the establishment
 of the post of Chief Human Capital Officer, the signing of the Office of Personnel Management
 Interchange Agreement, and improved communications on topics related to the APS and personnel
 issues in general. The assessment also found a need for continued improvement, including
 supervisor training on APS procedures and policies. We also evaluated the Corporation’s new
 Management Appraisal System and its proposed Employee Appraisal System, as well as the Equal
 Employment Opportunity climate. In addition, we identified new areas to evaluate for improvement
 including Office of Human Capital operations, employee development, and non-monetary rewards.

 In its response to our draft report, the Corporation proposed a number of specific actions that we
 believe will continue to improve the effectiveness of the APS.

 October 1, 2005 – March 31, 2006                                                                13
Audit Section

Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other not-for-profit organizations. Grantees are required to expend funds only
 for allowable costs, and to provide periodic reports to the Corporation to demonstrate programmatic
 and financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of
 grant awards.

 The Audit Section conducts audits of Corporation grantees to assess whether reported costs are
 allowable under Federal regulations and whether grantees are complying with the terms and
 conditions of their awards. Our reports on Corporation grants also include recommendations for
 correcting deficiencies. Typically, the recommendations call for grantees to reimburse questioned
 costs, establish and implement policies and procedures to prevent future instances of noncompliance,
 and improve internal controls. We also make recommendations for more effective Corporation
 oversight and improvements in grants management operations.

 During this reporting period, the OIG issued reports on four Training and Technical Assistance
 Cooperative Agreements, three State commissions and one AmeriCorps subgrantee, three
 AmeriCorps National Direct Grantees and two Senior Corps grantees.


State Commission Audits
 Audit Report 06-04, Agreed-Upon Procedures for Grants Awarded to the Comprehensive Links
 for After School Enrichment Program (subgrantee to the Puerto Rico Commission)

 The University of Puerto Rico claimed costs of $339,192, of which the auditors questioned $11,416
 as unallowable costs and $18,900 of education awards. The auditors also noted instances of
 noncompliance with provisions of Federal laws, regulations and grant award provisions.

 Audit Report 06-05, Audit of Subgrants Awarded by the Puerto Rico State Commission on
 Community Service and Social Action

 The grantees claimed costs of $1,512,093, of which the auditors questioned $155,067 as unallowable
 grant costs and $64,595 of education awards. The auditors also noted instances of noncompliance
 with provisions of Federal laws, regulations and grant award provisions.

 Audit Report 06-25, Audit of Grants Awarded to the Illinois Commission on Volunteerism and
 Community Service

 For the audit period the Commission claimed costs of $16,263,960. The auditors questioned
 $1,672,068 in grant costs, and $892,349 in education awards. The auditors also identified $7,532 in
 lost interest income, and found instances of noncompliance with Federal regulations and grant
 requirements, some of which are considered material weaknesses.

 Audit Report 06-27, Audit of Grants Awarded to the Virginia Governor’s Commission on
 National and Community Service

 Federal costs claimed by the Commission during the audit period totaled $3,788,137. No questioned
 costs were identified by the auditors. However, the auditors noted three instances of noncompliance
 with Federal regulations and grant provisions, none of which are considered material weaknesses.




 14                                                         October 1, 2005 – March 31, 2006
                                                                               Audit Section

AmeriCorps National Direct Grant Audits
 Audit Report 06-10, Audit of Grants Awarded to YouthBuild USA, Inc. (YouthBuild)

 The auditors questioned costs of $1,254,919, consisting of $266,950 in grant costs and $987,969 in
 education awards. The questioned grant costs are approximately 2.6 percent of the $10,367,709 in
 total costs claimed by YouthBuild. The auditors also noted instances of noncompliance with Federal
 regulations and grant requirements. In its response to the draft audit report, YouthBuild took issue
 with some of the auditors’ conclusions regarding the adequacy of documentation to support match,
 and the manner in which match is presented in its financial records. These issues will be resolved
 with the Corporation during the audit resolution phase.

 Audit Report 06-16, Audit of Grants Awarded to City Year, Inc.

 The audit identified questioned costs of $165,229, including unsupported or inadequately supported
 costs totaling $37,590. In addition, the auditors questioned costs, totaling $66,150, for member
 education awards because criminal background checks were not conducted on members in a timely
 manner or the background checks were inadequately documented. The audit report also includes 4
 findings and 10 recommendations to improve compliance with grant requirements and to improve
 internal controls. City Year’s response indicated a willingness to work with the Corporation to resolve
 the findings and recommendations. The grantee changed some policies and procedures in response
 to the report, but disagreed with some findings. The Corporation agreed to respond to the
 recommendations when it issues its proposed management decision.

 Audit Report 06-28, Audit of Grants Awarded to Habitat for Humanity International

 The audit identified questioned costs of $31,379, which related primarily to lump-sum payments of
 living allowances to AmeriCorps members for periods in which they were not serving, unsupported
 costs, and payments for unemployment insurance. The audit report also included seven findings and
 eight recommendations to improve compliance with grant requirements and to improve internal
 controls. Habitat, in its response to our draft report, generally proposed satisfactory corrective
 actions. The Corporation agreed that, during the audit resolution process, it would verify that Habitat
 had implemented the recommendations.


Training and Technical Assistance Cooperative Agreement Audits
 Audit Report 06-07, Audit of Cooperative Agreements Awarded to CHP International, Inc.

 The audit covered financial transactions, compliance, and internal control testing of CHP’s Training
 and Technical Assistance Cooperative Agreements: 01CAIL0001, 00CAIL0007, and 00CAIL0008.
 The audit did not result in questioned costs. However, it disclosed issues related to over- or under-
 claiming of indirect costs and management fees, noncompliance with a provision of the Drug-Free
 Workplace Act, and lack of written grievance policies and procedures. CHP’s response to the draft
 report indicated that it would adjust the indirect costs and that administrative memoranda addressing
 the two workplace policies would be issued.

 Audit Report 06-08, Audit of Cooperative Agreements Awarded to the Northwest Regional
 Education Laboratory (NWREL)

 The audit included testing costs claimed and compliance for Grant Numbers 01CAOR0017 and
 01CAOR0034. The audit report did not result in questioned costs but noted some separation of
 duties issues. The report also disclosed that a significant amount of program income is being used to
 expand program objectives. The use of program income in this manner does not comply with OMB
 Circular A-110.

 October 1, 2005 – March 31, 2006                                                                15
Audit Section

 NWREL indicated in its response to the draft audit report that it does not agree with the program
 income finding. However, it concurred with the remaining recommendations.

 Audit Report 06-09, Audit of Cooperative Agreements Awarded to Aguirre International, Inc.

 The audit covered financial transactions, compliance, and internal control testing of three Training
 and Technical Assistance Cooperative Agreements. Although the audit did not identify questioned
 costs, it disclosed that Aguirre was not always in compliance with the terms of the agreements in that
 it frequently submitted progress reports after the due dates. The Corporation and Aguirre, in their
 responses to our draft report, proposed satisfactory corrective actions.

 The report also disclosed that the terms of the cooperative agreements provided for management
 fees to Aguirre, a for-profit company, which Aguirre representatives described to the auditors as
 profit. The Corporation, in its response to the draft report, advised that it would not provide profit or
 management fees to for-profit organizations under the Training and Technical Assistance cooperative
 agreements unless otherwise directed by law.

 Audit Report 06-13, Audit of Cooperative Agreements Awarded to ETR Associates, Inc.

 The audit covered financial transactions, compliance, and internal control testing of two Training and
 Technical Assistance cooperative agreements with ETR for the period April 1, 2003, through March
 31, 2005. The auditors identified questioned costs of $47,427, which related to controls over program
 income. Our audit also disclosed that ETR did not adequately monitor subcontract costs. The
 Corporation and ETR, in their responses to our draft report, proposed satisfactory corrective actions.

 The report also disclosed that cooperative agreements awarded to ETR were funded through various
 Corporation fund codes provided by several Corporation departments or sections. When the
 Corporation commingles various funds within a single agreement or contract without restriction, the
 Corporation could be at risk of expending funds for purposes not intended by the appropriations
 associated with the funding codes. The Corporation commented that it recognized the need to
 improve its funding and accounting procedures and developed new procedures that were included in
 the application instructions for awards for new providers in October 2005.


Senior Corps Grant Audits
 Audit Report 06-11, Audit of Grants Awarded to the Mid-Willamette Valley Foster Grandparents
 Program

 The auditors questioned costs of $7,557, or approximately 1.5 percent of the $501,896 in costs
 claimed. The auditors found no instances of noncompliance with Federal laws, applicable regulations
 and award requirements that were considered to be reportable conditions. In its response to the draft
 audit report, Mid-Willamette Valley’s former host agency, the State of Oregon Department of Human
 Services, indicated that the questioned costs were adjusted on final financial reports submitted to the
 Corporation.

 Audit Report 06-24, Audit of Grants Awarded to the City of Kansas City

 The grantee claimed costs of $634,667, of which the auditors questioned $14,044 as unallowable.
 The auditors also noted instances of noncompliance with provisions of Federal laws, regulations and
 grant award provisions. The City of Kansas City agreed with most of the audit findings and presented
 a preliminary action plan to the Corporation. The final plan will be submitted during the audit
 resolution period.




 16                                                            October 1, 2005 – March 31, 2006
                                                                              Audit Section

Audit Resolution
 The Corporation's audit resolution process under Corporation Policy Number 101, Audit Resolution,
 consists of six steps that culminate in a Management Decision (MD) and completion of a Notice of
 Final Action on any corrective measures that management deems appropriate.

 Step 1: The OIG issues a draft report and allows 30 days for responses. The OIG issues a final
 audit report after considering any comments received from the Corporation and the auditee.

 Step 2: Within six months of the OIG’s issuance of a final audit report, the Corporation issues a
 Proposed Management Decision (PMD), responding to the report's findings and recommendations.
 The PMD explains any corrective actions and provides a timetable for implementation. It also
 explains whether management disagrees with any of the report's findings and recommendations.

 Step 3: Within 30 days of receiving the PMD, the OIG may provide written comments and may
 initiate additional discussions with Corporation management if the OIG does not concur with the
 PMD.

 Step 4: After reviewing any OIG comments, the Chief Financial Officer (CFO) issues a Management
 Decision (MD).

 Step 5: When all corrective actions in the MD have been completed, the Corporation issues a Notice
 of Final Action. A Notice of Final Action must be issued within 12 months of the date the audit report
 was issued.

 Step 6: Audits for which Final Action was not completed within 12 months of issuance are included in
 the OIG’s semiannual report. The Corporation then provides comments on the status of these
 incomplete actions and forwards this information to Congress.


Proposed Management Decisions
 A proposed management decision is a Corporation report that responds to an OIG audit’s findings
 and recommendations, and outlines a plan for corrective action. During this reporting period, the
 Corporation notified the Office of Inspector General of the following proposed management decisions:

     •   Audit Report 05-09, Audit of Grants Awarded to the Hawaii Commission for National and
         Community Service

     •   Audit Report 05-10, Audit of Grants Awarded to the Nevada Commission for National and
         Community Service

     •   Audit Report 05-13, Audit of Grants Awarded to the Ohio Community Service Council

     •   Audit Report 05-19, Audit of Grants Awarded to the Notre Dame Mission Volunteer Program
         through the Maryland Governor’s Office on Service and Volunteerism

     •   Audit Report 05-20, Audit of Grants Awarded to the Notre Dame Mission Volunteer Program

     •   Audit Report 05-21, Audit of Grants Awarded to the Iowa Commission on Volunteer Service

     •   Audit Report 05-22, Agreed-Upon Procedures of the Grant Awarded to Haddock AmeriCorps
         Cadet Program by the Georgia Commission for Service and Volunteerism

     •   Audit Report 06-01, Audit of the Corporation’s Fiscal Year 2005 Financial Statements

 October 1, 2005 – March 31, 2006                                                               17
Audit Section

      •   Audit Report 06-02, Audit of the Corporation’s Fiscal Year 2005 Financial Statements
          Management Letter

      •   Audit Report 06-03, Audit of the Corporation’s National Service Trust Schedule of Fiscal 2005
          Budgetary Resources and Obligations

      •   Audit Report 06-06, Independent Evaluation of the Corporation’s Compliance with the
          Federal Information Security Management Act for Fiscal Year 2005

      •   Audit Report 06-07, Audit of Training and Technical Assistance Cooperative Agreements
          Awarded to CHP International, Inc.

      •   Audit Report 06-09, Audit of Cooperative Agreements Awarded to Aguirre International, Inc.

      •   Audit Report 06-28, Audit of Grants Awarded to Habitat for Humanity International


Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed corrective
 actions. During this reporting period, the Office of Inspector General received the following Notices of
 Final Action:

      •   Audit Report 04-19, Pre-Audit Survey of the New York State Commission on National and
          Community Service

      •   Audit Report 05-01, Audit of the Corporation’s Fiscal Year 2004 Financial Statements

      •   Audit Report 05-02, Audit of the Corporation’s Fiscal Year 2004 Financial Statements
          Management Letter

      •   Audit Report 05-04, Audit of Grants Awarded to the Colorado Governor’s Commission on
          Community Service

      •   Audit Report 05-07, Independent Evaluation of Corporation’s Compliance with the Federal
          Information Security Management Act for Fiscal Year 2004

      •   Audit Report 05-09, Audit of Grants Awarded to the Hawaii Commission for National and
          Community Service

      •   Audit Report 05-11, Audit of the Corporation’s Commuter Benefits Program

      •   Audit Report 05-12, Audit of Grants Awarded to the Educational Service District 112

      •   Audit Report 05-13, Audit of Grants Awarded to the Ohio Community Service Council

      •   Audit Report 05-15, Audit of Grants Awarded to the Nebraska Volunteer Service Commission

      •   Audit Report 05-16, Audit of Grants Awarded to the National Association of Community
          Health Centers

      •   Audit Report 06-03, Audit of the Corporation’s National Service Trust Schedule of Fiscal 2005
          Budgetary Resources and Obligations

      •   Audit Report 06-09, Audit of Cooperative Agreements Awarded to Aguirre International, Inc.
 18                                                          October 1, 2005 – March 31, 2006
                                                                                      Audit Section

                                              Audit Reports Issued
                                         October 1, 2005 – March 31, 2006
Report         Issue                                                                  Dollars           Dollars
                                                   Report Name
Number          Date                                                                 Questioned      Unsupported
                                                                                        (Dollars in thousands)
  06-01       11/14/05     Audit of the Corporation's Fiscal Year 2005 Financial            $N/A              $N/A
                           Statements
  06-02       12/21/05     Audit of the Corporation's Fiscal Year 2005 Management               0               0
                           Letter
  06-03       11/14/05     Audit of the Corporation's National Service Trust                    0               0
                           Schedule of Fiscal 2005 Budgetary Resources and
                           Obligations
  06-04        1/4/06      Agreed-Upon procedures of Grant Awarded To                         11                9
                           Comprehensive Links For After School Enrichment
  06-05       2/13/06      Audit of Grants Awarded to Puerto Rico State                      155              150
                           Commission on Community Service and Social Action
                           Subgrantees
  06-06       10/14/05     Independent Evaluation of the Corporation's Compliance            N/A              N/A
                           with the Federal Information Security Management Act
                           for Fiscal Year 2005
  06-07       12/6/05      Audit of Training and Technical Assistance                           0               0
                           Cooperative Agreements Awarded to CHP International,
                           Inc.
  06-08        2/7/06      Audit of Grants Awarded to the Northwest Regional                    0               0
                           Educational Laboratory
  06-09       11/25/05     Audit of Cooperative Agreements Awarded to Aguirre                   0               0
                           International, Inc.
  06-10       2/15/06      Audit of Grants Awarded To YouthBuild USA, Inc.                   267              262
  06-11       2/10/06      Audit of Grants Awarded to Mid-Willamette Valley Foster              8               1
                           Grandparents Program
  06-13        1/5/06      Audit of Cooperative Agreements Awarded to ETR                     47                0
                           Associates, Inc.
  06-15       1/31/06      Follow-Up Review and Assessment of the Corporation's                 0               0
                           Alternative Personnel System
  06-16       3/24/06      Audit of Grants Awarded to City Year, Inc.                        165               38
  06-24       3/20/06      Audit of the Foster GrandParent Grant Awarded to the               14               11
                           City of Kansas City
  06-25       2/22/06      Audit of Grants Awarded to the Illinois Commission on           1,672              742
                           Volunteerism and Community Service
  06-27       3/31/06      Audit of the Grants Awarded to the Virginia                          0               0
                           Governor's Commission for National and Community
                           Service
  06-28        2/8/06      Audit of Grants Awarded to Habitat for Humanity                    31                1
                           International
                                                       TOTAL                              $2,371 *        $1,214
  N/A: Not applicable
  *The difference between the total of the column and $2,371 is due to rounding.



October 1, 2005 – March 31, 2006                                                                         19
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste, and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activities
                   involving the Corporation’s employees, contractors, and
                   grant recipients. Criminal investigations are presented
                   to the U.S. Attorney or, in some cases, the local
                   prosecutor for criminal prosecution and monetary
                   recovery. Some investigative reports are referred to
                   Corporation management for its administrative action or
                   information.




October 1, 2005 – March 31, 2006                                       21
                                                              Investigations Section


Summary of Cases
 At the beginning of this reporting period, 37 investigative actions were pending in the OIG
 Investigations Section. During this reporting period, OIG investigators opened 21 actions and closed
 30 investigations. Twenty-eight investigative actions were pending at the end of the period.

 Cases Closed This Period
 False Claims Violation (01-095)

 Corporation management reported that an AmeriCorps grant recipient used Corporation funds for
 purposes other than support of the grant. The grantee is alleged to have knowingly withdrawn
 Corporation grant funds in excess of support needs in order to keep the program operating. The U.S.
 Department of Justice initially accepted this case for criminal prosecution on November 26, 2001. On
 February 28, 2002, the matter was transferred to its Civil Section for civil recovery under the False
 Claims Act. On March 16, 2006, a civil settlement was reached with the grantee in which it agreed to
 repay $16,500 of the $187,000 it misapplied. The grantee also agreed to abstain from accepting any
 Corporation grant until September 1, 2007.

 Collusive Bidding (05-010)

 Corporation management reported that a government contractor had engaged in collusive bidding.
 Investigation disclosed evidence that the contractor engaged in collusive bidding when she conspired
 with another government contractor, a firm partly owned by her father and another individual. The
 contractor submitted bids and represented both firms regarding contracts for AmeriCorps training.
 Further investigation disclosed evidence that the contractor’s father is a government employee with
 another Federal agency. The other individual is an active-duty U.S. Army service member. This
 investigation was coordinated with the Federal Bureau of Investigation, which declined jurisdiction.
 The Treasury Inspector General for Tax Administration conducted a joint investigation with our
 agency. This matter was referred to the U.S. Department of Justice, which declined prosecution.
 Based on information developed by the OIG and presented to the Corporation, management
 debarred the three individuals and their two companies from participating in Federal contracts and
 grants for a period of three years.

 Alleged Hatch Act Violation (04-041)

 A Corporation employee reported that two Corporation managers may have violated the Hatch Act (5
 U.S.C. § 7321-26) when they sent e-mails to other Corporation employees regarding a fundraising
 event in Washington, DC, to support the re-election of a State senator. The OIG coordinated this
 matter with the Corporation’s Office of General Counsel, which reported that both employees sent
 retractions to their e-mails. This matter was reported to the U.S. Office of Special Counsel for
 investigation. The U.S. Office of Special Counsel concluded its investigation and reported to the OIG
 that the matter was resolved administratively.

 Theft of Program Funds (04-042)

 Corporation management reported that a program director misapplied Corporation program funds.
 The investigation found evidence that the program director fraudulently charged personal
 expenditures to the Corporation’s grant. The U.S. Department of Justice accepted this investigation
 and pursued civil prosecution. The individual agreed to a plea agreement and paid $5,946.42 in
 restitution, interest, and civil penalties. Based on the information developed by the OIG and
 presented to the Corporation, management debarred the former program director from participating in
 Federal contracts and grants for a period of 12 months.



 October 1, 2005 – March 31, 2006                                                              23
Investigations Section

 Violation of Government’s Ethics Regulation (05-036)

 The OIG received an anonymous report that a Corporation employee had received and personally
 benefited from hotel program awards points he received for arranging Corporation-funded training
 events. The OIG found evidence that several Corporation employees used their official government
 positions to receive hotel program awards points to which they were not entitled, and which they used
 for personal gain. The U.S. Department of Justice declined prosecution in lieu of administrative
 action, citing that there was no dollar loss to the government. The results of the investigation were
 provided to Corporation management for appropriate action. Corporation management reported to
 the OIG that the individuals involved received ethics training and counseling.

 Child Care Fraud (05-047)

 A Corporation grant recipient reported that a former AmeriCorps member had fraudulently received
 AmeriCorps*Care child care benefits. The investigation found evidence that, after the member
 enrolled in the AmeriCorps*Care child care program, the member also enrolled in her State’s child
 care subsidy program. This allowed the former member to receive thousands of dollars in
 AmeriCorps*Care benefits to which she was not entitled. This matter was referred to the U.S.
 Department of Justice for civil prosecution. The individual agreed to make full restitution in the
 amount of $7,612.30, in lieu of prosecution. Based on the information developed by the OIG and
 presented to the Corporation, management debarred the former member from participating in Federal
 contracts and grants for a period of two years.

 Theft of Program Funds (05-055)

 Corporation management reported that a program director misapplied Corporation program funds.
 The investigation found evidence that the program director fraudulently used the grantee’s charge
 card for her personal use and charged the costs to the Corporation’s grant. The U.S. Department of
 Justice declined to prosecute this matter in favor of local prosecution. The local prosecutor accepted
 this matter for criminal prosecution. The individual was found guilty and sentenced to 12 months
 confinement, which was suspended. She was ordered to serve 12 months’ supervised probation,
 required to serve 50 hours of community service, to make full restitution to the grantee, and was
 assessed $187 in court fees. Based on the information developed by the OIG and presented to the
 Corporation, management debarred the individual from participating in Federal contracts and grants
 for a period of 12 months.

 Trust Internal Controls (05-028)

 A limited-scope review was conducted of the Corporation’s controls and verification process for
 payments to non-educational institutions (banks and other commercial lenders) receiving education
 award payments. The OIG found that the Corporation does not have a Standard Operating
 Procedure in place for outlining the verification process for such payments.

 The OIG also discovered that delinquent education award accounts were not being processed in
 accordance with Corporation policy. A review of the National Service Trust Fund Negative Award
 Balance Report showed the Corporation had outstanding balances dating as far back as 1995. The
 results of the review were provided to Corporation management. Corporation management reported
 that, as a result of the OIG review, it established a new policy outlining procedures for handling debt
 collection. Management also reported that it was in the process of collecting $34,921.85 of the
 uncollected debt. The Corporation Trust Office is also establishing a system for the verification of
 non-educational institution lenders.

 Violation of Program Policy/Regulations (06-005)

 An allegation was reported to the OIG Hotline that a VISTA project was allowing its members to work
 and attend college in violation of VISTA policy and regulations. The investigation disclosed that a
 supervisor authorized a member to hold employment while enrolled in the VISTA program, in violation
 24                                                          October 1, 2005 – March 31, 2006
                                                              Investigations Section

of Title 42 United States Code Section 4954. In addition, two other VISTA members attended college
in excess of the allowable program limits. Based on information developed by the OIG and presented
to the Corporation, management disallowed the members’ education awards.                Corporation
management informed the OIG that it did not have the legal authority to administratively recoup the
$51,228.63 in living allowances the members had received from either the former VISTA members or
the program sponsor.

False Statement (06-006)

Corporation management reported that a VISTA member and site supervisor falsified the member’s
period of service form so that the member could depart the program early to report to another
AmeriCorps program. This action would have allowed the VISTA member to earn an education
award without fulfilling his service obligation. Based on the OIG investigation, Corporation
management disallowed the member’s education award.


Cases Open at End of Period
(The results of these ongoing investigations will be reported in subsequent semiannual reports.)

Theft of Program Funds (06-0014)

An allegation was reported to the OIG Hotline that a VISTA project executive director enrolled
employees in the VISTA program to supplement the employees’ salaries and benefits. The
investigation found that the executive director and project director conspired to supplement two full-
time and one part-time employee’s salaries with VISTA program funds. Corporation management
has terminated the members’ service. This matter was referred to the U.S. Department of Justice on
March 23, 2006, for a prosecutorial decision.

False Statement (06-0013)

Corporation management reported that a former AmeriCorps member submitted a fraudulent
education award voucher to the Corporation. The investigation found the individual had forged the
bank representative’s signature on his award voucher in an attempt to have the funds deposited
directly into his bank account for his personal use. The U.S. Department of Justice accepted this
investigation on January 31, 2006, and is pursuing criminal prosecution.

Forgery/Theft (06-011)

Corporation management reported that an unknown person intercepted, forged and cashed two
education award checks mailed to an educational institution. The OIG identified a suspect and
notified the U.S. Secret Service, which assumed responsibility as the lead investigative agency.

Misapplication of Program Funds (06-020)

An allegation was reported to the OIG Hotline that a new Corporation grantee was misapplying
Federal program funds. The caller alleged that grantee management was utilizing program funds to
pay for trips and related expenses for friends of grantee board members. The caller also alleged that
the program had no accounting system or policies in place and that management was shifting funds
between the Corporation program and other non-Federal program accounts.

False Statements/Theft (05-048)

The OIG investigated an allegation that a former AmeriCorps member, who later served as the
program director, failed to disclose on his application that he had a criminal conviction. The
investigation found evidence that the individual was allowed to serve in a school tutoring program
after he omitted his previous name and falsified his personal information forms by claiming that he

October 1, 2005 – March 31, 2006                                                               25
Investigations Section

 had never been convicted of a criminal offense. The investigation disclosed that the individual was a
 habitual sexual offender and had legally changed his name after being released from prison. This
 deception, if known, would have disqualified him from serving with children as a member or program
 director. This deception also allowed the individual to fraudulently receive more than $106,000 in
 Federal program funds to which he was not entitled. The U.S. Department of Justice accepted this
 investigation on August 31, 2005, and is pursuing criminal prosecution.

 Theft of Program Funds (05-030)

 Corporation management reported that a former VISTA member was employed during his VISTA
 service. The investigation found evidence that the member intentionally deceived program officials by
 claiming that he was volunteering at a local school when, in fact, he was employed at the school as a
 teacher. This allowed the VISTA member to receive more than $20,000 in Federal program funds,
 including his VISTA stipend, to which he was not entitled. The U.S. Department of Justice accepted
 this investigation on July 19, 2005, and is pursuing civil prosecution.

 Theft of Program Funds (05-007)

 A State commission reported an allegation to Corporation management that an AmeriCorps grant
 recipient had misapplied Corporation program funds. The investigation found evidence that the
 AmeriCorps program’s director conspired with her cousin to defraud the U.S. Government when they
 prepared and submitted a fraudulent rental agreement in order to divert Corporation funds to cover
 the grantee’s share of program operating costs. The U.S. Department of Justice accepted this
 investigation on January 28, 2005, and is pursuing civil prosecution.

 Personal Use of a Government Travel Charge Card (05-008)

 Corporation management reported that a Corporation employee had misused her Government Travel
 Charge Card. The investigation disclosed evidence that the employee misused her card to obtain
 cash advances and services that she was not authorized to receive. The employee also violated
 Corporation policy by failing to make payments on her account, resulting in a delinquency. Based on
 the results of the OIG investigation, the employee resigned prior to administrative action by
 management. The U.S. Department of Justice accepted this investigation on June 24, 2005, and is
 pursuing prosecution.

 Theft of VISTA Checks (04-017)

 Corporation management reported that an unknown person intercepted, forged and cashed two
 AmeriCorps*VISTA stipend checks from the U.S. Postal Service. The investigation disclosed that a
 postal employee cashed both checks. In February 2004, the OIG contacted the local U.S. Postal
 Inspection Service for assistance. Based on the information developed by the OIG, the U.S. Postal
 Inspection Service identified a postal employee as a suspect and also identified additional non-
 Corporation checks that had been similarly diverted. In March 2006, U.S. Postal Investigators
 obtained a confession from the employee and are pursuing prosecution.

 Fraudulent Receipt of Education Awards (04-039)

 A State commission reported allegations that a program coordinator, with the approval of the program
 director, fraudulently enrolled staff employees in the AmeriCorps program, falsified their service
 hours, and qualified them for education awards. The investigation confirmed the allegations and
 disclosed that several of the employees had received and used their education awards. Furthermore,
 the OIG discovered evidence that the program coordinator also inflated other AmeriCorps members’
 service hours to allow them to earn education awards. This matter was referred to the U.S.
 Department of Justice on December 16, 2004, for a prosecutorial decision. The U.S. Department of
 Justice accepted this investigation on February 27, 2006, and is pursing prosecution.


 26                                                         October 1, 2005 – March 31, 2006
                                                              Investigations Section

Theft of Government Services (Calling Card) (04-034)

A Corporation employee reported an allegation that unknown persons were misusing a government-
issued calling card. The investigation disclosed evidence that a former AmeriCorps member had
obtained the calling card number during her term of service. After leaving the AmeriCorps program,
the former member continued to utilize the calling card number to make personal telephone calls.
Additionally, the member failed to safeguard the number, which was subsequently used by
unauthorized personnel at various locations throughout the United States. The U.S. Department of
Justice accepted this investigation on June 7, 2005, and is pursuing prosecution.

Theft of Program Funds (01-005)

The OIG investigated an allegation that a Senior Corps grantee used Corporation funds for purposes
other than support of the grant. The grantee acknowledged receiving more than $300,000 in
Corporation program funds, which it used for purposes other than support of the grant. The U.S.
Department of Justice initially accepted this case for criminal prosecution on November 26, 2001. On
September 4, 2002, the matter was transferred to its Civil Section for civil recovery under the False
Claims Act.

Theft of Program Funds (02-007)

A State commission reported an allegation that a program executive director and a chief financial
officer misapplied program funds for their personal use. The investigation found evidence supporting
this allegation. Initially, the Federal Bureau of Investigation was the lead investigative agency but,
due to other commitments, was unable to pursue this matter fully. The U.S. Department of Justice
has declined to prosecute this matter in favor of local prosecution. The local prosecutor accepted this
matter for criminal prosecution on December 19, 2003.

Theft of Program Funds (02-028)

Corporation management reported that the executive director of a grant recipient was diverting
Corporation program funds to cover personal expenditures and business expenses that were
unrelated to program operations. The investigation found evidence that the executive director and
her spouse had diverted a significant amount of Corporation funds. The U.S. Department of Justice
accepted this investigation on March 11, 2003, and is pursuing criminal prosecution.

VISTA Stipend Checks Theft (03-016)

Corporation management reported that an unknown person intercepted, forged, and cashed the
AmeriCorps*VISTA stipend checks of a former VISTA member over a six-month period. A suspect
was identified as the former program director and the information was provided to the Federal Bureau
of Investigation, which has assumed responsibility as the lead investigative agency. The U.S.
Department of Justice accepted this investigation for criminal prosecution. The individual plead guilty
and was sentenced to five years’ probation and ordered to make restitution to the Corporation in the
amount of $5,943.72. Based on the information developed during its investigation, the OIG forwarded
a recommendation for debarment to the Corporation to preclude the former program director from
participating in Federal contracts and grants for a period of time.

Fraudulent Receipt of VISTA Stipend (03-040)

A Corporation State Office employee reported that an AmeriCorps*VISTA member left the program
but continued to receive her stipend, allowing her to collect a significant amount of Corporation funds
to which she was not entitled. The investigation found that the former member’s program failed to
verify member attendance and also failed to provide written documentation of member attendance in
its biweekly reports. The U.S. Department of Justice accepted this investigation on November 25,
2003, and is pursuing criminal prosecution.

October 1, 2005 – March 31, 2006                                                                27
Investigations Section

 Theft of Program Funds (05-023)

 A State commission employee reported that a former AmeriCorps grant recipient had informed her
 that, during a post-program audit, it was discovered that the grantee’s former program director had
 embezzled AmeriCorps program funds. A joint investigation was conducted with the Federal Bureau
 of Investigation, which is serving as the lead investigative agency, and local law enforcement
 authorities. The U.S. Department of Justice accepted this investigation. The individual entered a
 guilty plead on November 14, 2005, and sentencing is pending.

 Theft of Program Funds (05-041)

 An allegation was reported to the OIG Hotline that a VISTA project director enrolled her employees in
 the VISTA program to supplement the employees’ salaries and benefits. The investigation found
 evidence that the project director conspired with her husband to fraudulently enroll their private
 business employees in the VISTA program to supplement their salaries and benefits with Federal
 program funds. The U.S. Department of Justice accepted this investigation on September 22, 2005,
 and is pursuing criminal prosecution.

 Allegation of Education Award Fraud (05-049)

 An OIG program review disclosed that an AmeriCorps grant recipient had falsified its members'
 education award certifications. The investigation found evidence that the members’ timesheets
 contained unauthorized service hours and did not match the total hours certified by program officials
 to the Corporation to establish the members’ education award eligibility. The U.S. Department of
 Justice accepted this investigation on February 27, 2006, and is pursuing prosecution.

 Theft of Program Funds (05-054)

 Corporation management reported an allegation that a grant recipient had misapplied Corporation
 program funds. The investigation found evidence that the grantee’s executive director diverted
 Corporation funds to cover non-grant expenditures and operating costs. The U.S. Department of
 Justice accepted this investigation on September 27, 2005, and is pursuing civil prosecution.




 28                                                         October 1, 2005 – March 31, 2006
                                                               Investigations Section

                                     Summary Of Cases
  Opened and Closed
  Cases Open at Beginning of Reporting Period                                            37

  New Cases Opened                                                                       21

  Cases Closed this Period With Significant Findings                                     18

  Cases Closed this Period With No Significant Findings                                  12

  Total Cases Closed                                                                     30

  Cases Open at End of Reporting Period                                                  28

  Referred
  Cases Referred for Prosecution                                                          5

  Cases Accepted for Prosecution                                                          5*

  Cases Declined for Prosecution                                                          2*

  Cases Pending Prosecutorial Review                                                      0

  Cases Pending Adjudication                                                             18

  Recommendations to Management
  Investigative Recommendations Referred to Management                                   22

  Investigative Recommendations Pending this Reporting Period                             0


  Investigative Recommendations Pending from Previous Reporting Periods                   0

  * This includes cases referred for prosecution during the previous reporting period.




October 1, 2005 – March 31, 2006                                                         29
                             Review of Legislation and
                                          Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




October 1, 2005 – March 31, 2006                                       31
                               Review Of Legislation And Regulations


Program Fraud Civil Remedies Act
 In a prior reporting period, the Office of Inspector General (OIG) had recommended to the
 Corporation that it promulgate regulations to implement the Program Fraud Civil Remedies Act
 (PFCRA) 31 U.S.C. §§ 3801-3812. This Act, enacted in 1986, provides Federal agencies with an
 administrative means to recoup Federal funds of less than $150,000 that were unlawfully obtained by
 persons through false claims or false statements.

 On February 1, 2006, the Corporation published for public comment in the Federal Register a draft
 regulation that would implement the provisions of the PFCRA. The draft regulation is substantially
 similar to the model regulation issued in 1986 by a President’s Council on Integrity and Efficiency
 (PCIE) interagency task force and promulgated since that time by numerous Federal agencies
 overseen by Inspectors General affiliated with the PCIE. The period for public comment on this draft
 regulation expired on April, 3, 2006. The OIG will continue to monitor the progress toward
 implementation of the final rule and will report the results in a subsequent semiannual report.




 October 1, 2005 – March 31, 2006                                                             33
                                             Statistical and
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2005 – March 31, 2006                                    35
                                                                                        Tables


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                31

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                   and deficiencies found in the administration of Corporation
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         41
                   has not been completed

      5 (a)(4)     Matters referred to prosecutorial authorities                        29

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period

      5 (a)(6)     List of audit reports by subject matter showing dollar value of      19
                   questioned costs and recommendations that funds be put to
                   better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      38
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      39
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        40
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector         None this
                   General disagrees                                                  period




 October 1, 2005 – March 31, 2006                                                             37
Tables


II.           Reports With Questioned Costs


                                                                                       Federal Costs

                     Report Category                         Number Questioned                     Unsupported
                                                                                       (Dollars in thousands)
      A. Reports for which no management decision                 10                 $2,292 *                    $573
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period               9                   2,371                      1,214

      C. Total Reports (A + B)                                    19                  4,663                      1,787

      D. Reports for which a management decision                  8                     638                          223
         was made during the reporting period

          I. Value of disallowed costs                                                  261                           66

          II. Value of costs not disallowed                                             377                          157

      E. Reports for which no management decision                 11                 $4,025                     $1,564
         had been made by the end of the reporting
         period (C minus D)

      F. Reports with questioned costs for which no               3                  $1,685 **                   $352
         management decision was made within six
         months of issuance

      *The questioned cost was reduced because it was found that one AmeriCorp member was counted twice in Audit
      Report No. 05-20, Audit of Grants Awarded to the Notre Dame Mission Volunteer Program

      ** The Corporation extended the resolution period due to disruptions caused by the 2005 hurricanes for Audit
      Report 05-21, Audit of the Louisana Commission, with questioned cost of $426,611.




  38                                                                   October 1, 2005 – March 31, 2006
                                                                                                  Tables


III.         Reports With Recommendations That Funds
             Be Put To Better Use

                     Report Category                      Number*         Dollar Value*
                                                                      (Dollars in thousands)
       A. Reports for which no management decision             0                    $0
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period           1                  $183

       C. Reports for which a management decision
          was made during the reporting period

          i. Value of recommendations agreed to by             1                  $183
          management

          ii. Value of recommendations not agreed to           0                    $0
          by management

       D. Reports for which no management decision             0                    $0
          had been made by the end of the reporting
          period

       E. Reports for which no management decision             0                    $0
          was made within six months of issuance




   *The Audit Section predominately performed cost-incurred and compliance audits that resulted in questioned
   costs and noncompliance findings. These types of audits typically do not lead to recommendations that
   funds be put to better use.




  October 1, 2005 – March 31, 2006                                                                      39
Tables


IV.         Summary of Audits With Overdue Management Decisions


                                                              Federal            Mgmt.          Status as of
      Report                                                  Dollars           Decision         March 31,
      Number                        Title                    Questioned           Due              2006
        05-18      Agreed-Upon Procedures of the                $216,868         03/02/06        A Proposed
                   Wyoming Commission                                                           Management
                                                                                               Decision has not
                                                                                               been provided to
                                                                                                   the OIG


        05-21                                           1        426,611         01/07/06        A Proposed
                   Audit of the Louisiana Commission
                                                                                                Management
                                                                                               Decision has not
                                                                                               been provided to
                                                                                                   the OIG


        05-24      Audit of the California Governor’s          1,041,476         03/22/06        A Proposed
                   Office on Service and Volunteerism                                           Management
                   (GO SERV)                                                                   Decision has not
                                                                                               been provided to
                                                                                                   the OIG


                                    Total                      $1,684,955


  1
      The Corporation extended the resolution period due to disruptions caused by the 2005 hurricanes.




 40                                                                  October 1, 2005 – March 31, 2006
                                                             Tables


V.       Reports Described in Prior Semiannual Reports
         Without Final Action


     Report                                   Date       Final
     Number                    Title         Issued   Action Due

              None




 October 1, 2005 – March 31, 2006                                  41
      Learn More About OIG
       Investigations And
         Audits With Our
     Downloadable Brochures




                         Subscribe To Our Newsletter,
                          “For Your Inspection” (FYI)



                        For More On The Role And Work
                          Of The Inspectors General,
                                    Watch
                        “The Inspectors General Story”
                         Featuring Senator John Glenn


All These Publications Can Be Found On Our Web Site
                 WWW.CNCSIG.GOV
